                                         February 22, 2012



Mr. Michael S. Gibson
Director, Division of Banking Supervision and Regulation
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Mr. Gibson:

      Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act
(FDI Act), 12 U.S.C. 1831o(k), as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act), the Office of Inspector General of the Board of
Governors of the Federal Reserve System conducted a material loss review of First Chicago
Bank and Trust (First Chicago). Under section 38(k) of the FDI Act, as amended, a material
loss to the Deposit Insurance Fund (DIF) was defined as an estimated loss in excess of $200
million. Pursuant to the Dodd-Frank Act, this threshold applies if the loss occurred between
January 1, 2010, and December 31, 2011. The FDI Act requires that we

     •   review the agency’s supervision of the failed institution, including the agency’s
         implementation of prompt corrective action (PCA);

     •   ascertain why the institution’s problems resulted in a material loss to the DIF; and

     •   make recommendations for preventing any such loss in the future.

      First Chicago was supervised by the Federal Reserve Bank of Chicago (FRB Chicago),
under delegated authority from the Board of Governors of the Federal Reserve System (Federal
Reserve Board), and by the Illinois Department of Financial and Professional Regulation (State).
The State closed First Chicago on July 8, 2011, and appointed the Federal Deposit Insurance
Corporation (FDIC) as receiver. On August 22, 2011, the FDIC Office of Inspector General
notified our office that First Chicago’s failure would result in a $284.3 million loss to the DIF, or
29.9 percent of the bank’s $950.8 million in total assets at closing.

     First Chicago failed because its Board of Directors and management did not adequately
control the risks associated with the bank’s aggressive lending strategy, which focused on
commercial real estate (CRE) loans, including construction, land, and land development
(CLD) loans. The bank’s business strategy included loan growth through CRE lending,
supported primarily by non-core funding sources, and resulted in a CRE concentration. A
2006 merger that led to the creation of First Chicago reduced the bank’s CRE concentration
Mr. Michael S. Gibson                            2                              February 22, 2012


and helped diversify the bank’s loan portfolio. Management planned to further reduce the
bank’s concentration through loan diversification by increasing lending in commercial and
industrial (C&I) loans. However, management’s subsequent efforts failed to reduce and
adequately manage the bank’s credit concentration risks. First Chicago’s CRE loan
concentration, particularly in CLD loans, made the bank especially vulnerable to real estate
market declines. First Chicago’s Board of Directors’ and management’s failure to effectively
manage the bank’s CRE and CLD credit risk, coupled with a declining real estate market, led
to significant asset quality deterioration. Mounting losses depleted the bank’s earnings and
eroded capital, which prompted the State to close First Chicago and appoint the FDIC as
receiver on July 8, 2011.

      With respect to supervision, FRB Chicago complied with the examination frequency
guidelines for the timeframe we reviewed, 2007 through 2011, and conducted regular off-site
monitoring. During the period covered by our review, FRB Chicago and the State conducted
four full scope examinations, two target examinations, one supervisory assessment, and one
CRE review; executed three enforcement actions—a Board Resolution, a Written Agreement,
and a PCA Directive; and implemented the applicable provisions of PCA. FRB Chicago also
complied with the Federal Reserve Board’s Supervision and Regulation (SR) Letter 98-28,
Examinations of Insured Depository Institutions Prior to Membership or Mergers into State
Member Banks.

     Fulfilling our mandate under section 38(k) of the FDI Act provides an opportunity to
determine, in hindsight, whether additional or alternative supervisory actions could have been
taken to reduce the likelihood of a bank’s failure or a loss to the DIF. Our analysis of FRB
Chicago’s supervision of First Chicago revealed that FRB Chicago identified the bank’s
fundamental weaknesses, but did not take early, forceful supervisory action to address those
weaknesses.

      We believe that there were a number of instances that presented an opportunity for stronger
supervisory responses. In a March 2007 examination, examiners noted First Chicago’s high
CRE and CLD loan concentrations, and acknowledged management’s plan to reduce these
concentrations by diversifying the bank’s loan portfolio through increased C&I lending.
Examiners only suggested that management “consider enhancing its risk management practices
over the bank’s real estate loan concentrations” as outlined in SR Letter 07-1, Interagency
Guidance on Concentrations in Commercial Real Estate. At the following examination in April
2008, examiners again cited First Chicago’s high concentrations in CRE and CLD loans, but did
not compel the bank to adhere to the enhanced credit risk management standards detailed in SR
Letter 07-1 to address its credit concentrations. Asset quality and earnings deterioration were
noted in an April 2009 supervisory assessment, and in a June 2009 examination, examiners
identified multiple weaknesses in First Chicago’s assessment of credit risk, such as problem loan
identification and concentration monitoring. Therefore, we believe that a stronger supervisory
response related to the credit risk management of concentrations was warranted as early as the
April 2008 examination.

      Weaknesses in First Chicago’s credit risk management practices and bank management’s
inability to manage the resulting effects of asset quality deterioration during stressed economic
Mr. Michael S. Gibson                            3                              February 22, 2012


times contributed to the bank’s poor overall financial condition. In April 2009, FRB Chicago
and the State conducted a supervisory assessment because examiners determined that there was
strong evidence that First Chicago’s financial condition changed significantly. Examiners
downgraded the CAMELS composite rating to a 3 due to the bank’s declining condition. In
addition, examiners downgraded the capital and liquidity components to 3 ratings, the asset
quality component to a 4 rating, triple downgraded the earnings component to a 5 rating, but
maintained the management component rating at a 2. While we recognize that FRB Chicago
downgraded First Chicago’s management CAMELS component rating in the subsequent
examination that began in June 2009, we believe that this supervisory assessment presented an
opportunity for stronger criticism of management’s performance related to the bank’s
deteriorating condition.

       In June 2009, two months after the supervisory assessment, FRB Chicago began a joint full
scope examination that revealed further deterioration in the bank’s condition and resulted in a
double downgrade of the CAMELS composite rating to a 5. Examiners also double downgraded
the management component to a 4 rating to reflect the bank’s critically deficient condition and
weak risk management practices. First Chicago’s overall condition continued to erode, and the
bank’s CAMELS composite rating remained a 5 following the November 2009 and June 2010
examinations. Examiners found that First Chicago’s (1) high volume of nonperforming loans
and classified assets, (2) significant reliance on brokered deposits, (3) critically deficient
earnings, and (4) depleted capital contributed to its critically deficient condition. In addition,
examiners cited management’s “significant role” in the bank’s heightened risk profile and stated
that the bank’s failure was “a distinct possibility.” Nonetheless, examiners continued to rate the
management component a 4. In our opinion, First Chicago’s condition and management’s
inability to timely address identified deficiencies called for stronger criticism, including a
management component downgrade.

      While we believe that FRB Chicago had opportunities for earlier and more forceful
supervisory action, it is not possible for us to predict the effectiveness or impact of any
corrective measures that might have been taken by the bank. Therefore, we cannot evaluate the
degree to which an earlier or alternative supervisory response would have affected First
Chicago’s financial deterioration or the ultimate cost to the DIF.

      Although the failure of an individual institution does not necessarily provide sufficient
evidence to draw broad-based conclusions, we believe that First Chicago’s failure offers lessons
learned that can be applied to supervising banks with similar characteristics and circumstances.
First Chicago’s failure illustrates the importance of (1) timely implementation of a robust credit
risk assessment program designed to facilitate the identification and management of
concentrations; (2) closely monitoring and assessing management performance; and (3)
appropriately assigning management CAMELS ratings commensurate with the issues identified
during the examination.

      We provided our draft to the Director of the Division of Banking Supervision and
Regulation for review and comment. The Director concurred with our conclusions and lessons
learned. His response is included as Appendix 3.
Mr. Michael S. Gibson                           4                               February 22, 2012


     We appreciate the cooperation that we received from FRB Chicago and Federal Reserve
Board staff during our review. The principal contributors to this report are listed in Appendix 4.

      This report will be added to our public web site and will be summarized in our next
semiannual report to Congress. Please contact me if you would like to discuss this report or any
related issues.

                                            Sincerely,


                                       Anthony J. Castaldo
                                   Associate Inspector General
                                 for Inspections and Evaluations

cc:   Chairman Ben S. Bernanke
      Vice Chair Janet L. Yellen
      Governor Daniel K. Tarullo
      Governor Elizabeth A. Duke
      Governor Sarah Bloom Raskin
      Ms. Cathy Lemieux
Office of Inspector General


     Material Loss Review of
  First Chicago Bank and Trust




 Board of Governors of the Federal Reserve System




                                            February 2012
                                                       Table of Contents


                                                                                                                                       Page
Background ................................................................................................................................... 9

Objectives, Scope, and Methodology ......................................................................................... 10

Cause of the Failure .................................................................................................................... 11

  Aggressive Lending Strategy Contributed to a CRE Concentration ......................................... 11

  Board of Directors and Management Failed to Reduce
  the Bank’s CRE Concentrations ................................................................................................ 12

  Decline in Real Estate Market Led to Asset Quality Deterioration ........................................... 15

  Loan Losses and Goodwill Impairment Eliminated Earnings and Depleted Capital ................ 16

Supervision of First Chicago Bank and Trust.......................................................................... 17

  March 2007 Joint Full Scope Examination Resulted in a CAMELS
  Composite 2 Rating.................................................................................................................... 18

  April 2008 Joint Full Scope Examination Maintained a CAMELS
  Composite 2 Rating but Resulted in a Board Resolution .......................................................... 19

  April 2009 Joint Supervisory Assessment Resulted in a Downgrade to
  a CAMELS Composite 3 Rating................................................................................................ 20

  June 2009 Joint Full Scope Examination Resulted in a CAMELS
  Composite 5 Rating and a Written Agreement .......................................................................... 21

  November 2009 Joint Target Examination Maintained a CAMELS
  Composite 5 Rating.................................................................................................................... 22

  June 2010 Joint Full Scope Examination Resulted in Another CAMELS
  Composite 5 Rating ................................................................................................................... 22

  January 2011 Joint Target Examination Maintained a CAMELS
  Composite 5 Rating.................................................................................................................... 23




                                                                       7
Conclusions and Lessons Learned............................................................................................. 23

  Lessons Learned......................................................................................................................... 25

Analysis of Comments ................................................................................................................ 25

Appendixes................................................................................................................................... 27

  Appendix 1 – Glossary of Banking and Regulatory Terms ....................................................... 29

  Appendix 2 – CAMELS Rating System .................................................................................... 33

  Appendix 3 – Division Director’s Comments ........................................................................... 35

  Appendix 4 – Principal Contributors to This Report ................................................................. 37




                                                                       8
Background
In November 2006, First Chicago Bank and Trust (First Chicago) was created following the
merger of Labe Bank and Bloomingdale Bank and Trust (Bloomingdale). 1 Labe Bank was a
savings bank established in 1905 in Chicago, Illinois, and became a state member bank (SMB) in
2006. Bloomingdale was an SMB established in 1991, and it operated in Bloomingdale, Illinois.
First Chicago was wholly owned by First Chicago Bancorp (Bancorp). First Chicago was
supervised by the Federal Reserve Bank of Chicago (FRB Chicago), under delegated authority
from the Board of Governors of the Federal Reserve System (Federal Reserve Board), and by the
Illinois Department of Financial and Professional Regulation (State).

A large stake in Bancorp was held by Castle Creek Capital (Castle Creek), a bank holding
company (BHC) and private equity firm based in Rancho Santa Fe, California. 2 As shown in
Figure 1, Castle Creek’s principal shareholders were three BHCs. Castle Creek was supervised
by the Federal Reserve Bank of San Francisco (FRB San Francisco), under delegated authority
from the Federal Reserve Board. Castle Creek sought capital in order to invest in community
banks in regions that were deemed to have favorable growth prospects. Bancorp was Castle
Creek’s first investment in the Chicago metropolitan area, and the firm placed executives in key
positions to manage First Chicago’s operations. First Chicago’s business activities focused
primarily on commercial real estate (CRE) lending in the greater Chicago area. FRB Chicago
conducted its first safety and soundness examination of First Chicago in March 2007.




    1
      As described in regulatory documents, Bloomingdale was merged into Labe Bank. Following the merger,
Labe Bank changed its name to First Chicago Bank and Trust.
    2
      Castle Creek Capital represents Castle Creek Capital Partners III, LP, and Castle Creek Capital III, LLC.
Castle Creek Capital Partners III, LP, was created for the explicit purpose of making private equity investments in
U.S. banks having total assets between $100 million and $5 billion. Castle Creek Capital III, LLC, managed the
investments of Castle Creek Capital Partners III, LP.

                                                          9
Figure 1: First Chicago Ownership Structure

                  BHC Investor 1                 BHC Investor 2                  BHC Investor 3
                Rancho Santa Fe, CA            Rancho Santa Fe, CA             Rancho Santa Fe, CA


                                               Castle Creek Capital
                                                 III, LLC (BHC)


                                               Castle Creek Capital
                                              Partners III, LP (BHC)


                                              First Chicago Bancorp
                                                      (BHC)


                                               First Chicago Bank &
                                                    Trust (SMB)



The State closed First Chicago on July 8, 2011, and appointed the Federal Deposit Insurance
Corporation (FDIC) as receiver. The FDIC estimated that First Chicago’s failure would result in
a $284.3 million loss to the Deposit Insurance Fund (DIF), or 29.9 percent of the bank’s $950.8
million in total assets at closing. On August 22, 2011, the FDIC Office of Inspector General
notified our office that First Chicago’s failure would result in a material loss to the DIF. Under
section 38(k) of the Federal Deposit Insurance Act, as amended (FDI Act), a material loss to the
DIF was defined, at the time, as any estimated loss in excess of $200 million. 3

Objectives, Scope, and Methodology
When a loss to the DIF is considered material, section 38(k) of the FDI Act requires that the
Inspector General of the appropriate federal banking agency

        •   review the agency’s supervision of the failed institution, including the agency’s
            implementation of prompt corrective action (PCA);

        •   ascertain why the institution’s problems resulted in a material loss to the DIF; and

        •   make recommendations for preventing any such loss in the future.


    3
      Pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub. L. No. 111-203, enacted
on July 21, 2010, the $200 million materiality threshold applies if the loss occurred during the period January 1,
2010, through December 31, 2011. Section 38(k) of the FDI Act had previously defined a material loss to the DIF
as the greater of $25 million or 2 percent of the institution’s total assets.


                                                        10
To accomplish our objectives, we reviewed the Federal Reserve System’s Commercial Bank
Examination Manual and relevant supervisory guidance. We interviewed staff and collected
relevant data from FRB Chicago, FRB San Francisco, the State, and the Federal Reserve Board.
We also reviewed correspondence, surveillance reports, regulatory reports filed by First Chicago,
examination reports issued from 2007 through 2011, examination work papers prepared by FRB
Chicago, and relevant FDIC documents. Appendixes at the end of this report contain a glossary
of key banking and regulatory terms and a description of the CAMELS rating system. 4 We
conducted our fieldwork from August 2011 through January 2012 in accordance with the Quality
Standards for Inspection and Evaluation issued by the Council of the Inspectors General on
Integrity and Efficiency.

Cause of the Failure
First Chicago failed because its Board of Directors and management did not adequately control
the risks associated with the bank’s aggressive lending strategy, which focused on CRE loans,
including construction, land, and land development (CLD) loans. The bank’s business strategy
included loan growth through CRE lending, supported primarily by non-core funding sources,
and resulted in a CRE concentration. The 2006 merger reduced the bank’s CRE concentration
and helped diversify the bank’s loan portfolio. Management planned to further reduce the bank’s
concentration through loan diversification by increasing lending in commercial and industrial
(C&I) loans. However, management’s subsequent efforts failed to reduce and adequately
manage the bank’s credit concentration risks. First Chicago’s CRE loan concentration,
particularly in CLD loans, made the bank especially vulnerable to real estate market declines.
First Chicago’s Board of Directors’ and management’s failure to effectively manage the bank’s
CRE and CLD credit risk, coupled with a declining real estate market, led to significant asset
quality deterioration. Mounting losses depleted the bank’s earnings and eroded capital, which
prompted the State to close First Chicago and appoint the FDIC as receiver on July 8, 2011.

Aggressive Lending Strategy Contributed to a CRE Concentration

Before the formation of First Chicago, Labe Bank had an aggressive lending strategy that
focused on CRE. Prior to 2005, management focused on expanding CRE lending, which led to
the bank’s loan portfolio having a concentration in CRE, particularly in CLD and multi-family
loans. In 2005, the Board of Directors and management began to aggressively grow the bank.
Labe Bank, which became First Chicago in 2006, experienced substantial growth between 2005
and 2008 due to (1) its merger with Bloomingdale, which roughly doubled the size of the bank,
and (2) aggressive loan growth. 5




    4
      The CAMELS acronym represents six banking supervision components: Capital adequacy, Asset quality,
Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each component
and overall composite score is assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5
having the greatest concern.
    5
      At the time of the merger, Bloomingdale primarily focused on C&I lending and had a CRE concentration that
was below its peer group average.

                                                       11
As shown in Chart 1, the bank’s total assets more than tripled from $396.9 million in 2004 to its
peak at approximately $1.3 billion in 2008.6 This asset growth was primarily supported by non-
core funding sources, such as brokered deposits. The brokered deposits increased from $111.7
million in 2006 to $408.5 million in 2008. Examiners noted First Chicago’s plan for aggressive
growth during FRB Chicago’s first examination in March 2007 and highlighted management’s
plan to increase assets from $2 to $5 billion in five years through internal growth and
acquisitions and to become a public company.

Chart 1: Total Assets

                                   $1,400,000
                                   $1,200,000
                  (000s omitted)




                                   $1,000,000
                                    $800,000
                                    $600,000
                                    $400,000
                                    $200,000
                                           $0
                                                2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                                                     Year-end



Board of Directors and Management Failed to Reduce the Bank’s CRE Concentration

In 2005, the bank increased CRE lending, particularly in multi-family and CLD loans. Growth
between 2006 and 2008 was attributed to the merger and increased lending in C&I and CRE,
primarily in nonfarm, nonresidential real estate and CLD. The March 2007 examination
revealed management’s plans to reduce the bank’s CRE concentration by continued loan
portfolio diversification through increased C&I lending. Despite management’s efforts to
diversify the loan portfolio, CRE loans increased and remained the largest segment in the
portfolio. As shown in Chart 2, CRE growth represented $401 million, or 55.9 percent, of total
loan growth of $717.7 million between 2005 and 2008, while C&I represented $279.1 million, or
38.9 percent, of total loan growth.




   6
       Figures in this report that pre-date the November 2006 merger pertain to Labe Bank.

                                                                12
Chart 2: Loan Portfolio

                            $1,200,000
           (000s omitted)   $1,000,000
                             $800,000
                                                                                                 Other
                             $600,000
                                                                                                 C&I
                             $400,000
                                                                                                 Other CRE
                             $200,000                                                            CLD
                                   $0
                                         2005   2006   2007    2008       2009      2010
                                                         Year-end


As shown in Chart 3a, First Chicago’s CRE loan concentration as a percentage of total risk-based
capital remained high and consistently exceeded both its peer group average and the thresholds
described in the Federal Reserve Board’s Supervision and Regulation (SR) Letter 07-1,
Interagency Guidance on Concentrations in Commercial Real Estate. 7 The bank’s CRE
concentration declined from 667 percent in 2005 to 545 percent of total risk-based capital in
2006 as a result of the merger. However, the bank’s CRE concentration remained high and
consistently exceeded its peer group average. As illustrated in Chart 3b, the bank’s CLD loan
concentration also consistently exceeded its peer group averages and increased from a low of 168
percent in 2006 to 189 percent the following year. Significant losses depleted the bank’s capital
levels, which caused the bank’s CRE and CLD concentrations to spike in 2010. In general,
credit concentrations increase a financial institution’s vulnerability to changes in the marketplace
and compound the risks inherent in individual loans. CLD concentrations are particularly risky
because the developer’s capacity to repay the loan is typically subject to the success of the
underlying construction project.




    7
      First Chicago was in two peer groups from 2005 to 2010. Between 2005 and 2006, the bank was in peer group
3, which consisted of all insured commercial banks having assets between $300 million and $1 billion. Between
2007 and 2010, the bank was in group 2, which consisted of all insured commercial banks having assets between $1
billion and $3 billion. According to SR Letter 07-1 (issued in January 2007), an institution presents potential CRE
concentration risk if it meets the following criteria: (1) total reported loans for CLD represent 100 percent or more
of an institution’s total capital; or (2) total CRE loans represent 300 percent or more of the institution’s total capital,
and the outstanding balance of the institution’s CRE loan portfolio has increased by 50 percent or more during the
prior 36 months.


                                                            13
Chart 3a: Total CRE Loan Concentration

                                                   1800%
                 Total CRE as a % of Total Risk-   1500%
                                                   1200%
                         based Capital


                                                   900%
                                                   600%
                                                   300%
                                                     0%
                                                               2005          2006         2007      2008          2009       2010
                                                                                             Year-end

                                                    First Chicago     Peer          SR Letter 07-1 Regulatory Guidance for Total CRE


Chart 3b: Total CLD Loan Concentration

                                                   400%
                                                   350%
          Total CLD as a % of Total Risk-




                                                   300%
                                                   250%
                  based Capital




                                                   200%
                                                   150%
                                                   100%
                                                    50%
                                                     0%
                                                             2005        2006            2007      2008          2009        2010
                                                                                            Year-end

                                                    First Chicago     Peer          SR Letter 07-1 Regulatory Guidance for Total CLD


The Board of Directors and management were slow to implement a credit risk assessment
program that effectively identified, monitored, and controlled the bank’s CRE and CLD
concentration risk. Even though the bank’s CRE and CLD concentrations exceeded the
thresholds in SR Letter 07-1, management failed to fully and expeditiously implement the CRE
risk management practices set forth in the SR letter. In multiple examination reports between
2008 and 2011, examiners commented on weaknesses in the bank’s credit risk management
practices regarding real estate concentrations, such as (1) inadequate credit concentration policy
limits, (2) insufficient internal loan stratification reporting, (3) a lack of guidelines and strategies
to reduce such concentrations, and (4) insufficient analysis of the potential impact on the bank’s
CRE loan portfolio in declining market conditions. Additionally, examiners noted operational
deficiencies in the bank’s loan administration practices, particularly regarding management’s
loan documentation practices and monitoring of the bank’s CLD loan portfolio. We believe

                                                                                         14
these weaknesses hindered management’s ability to effectively oversee First Chicago’s credit
risk and further increased First Chicago’s vulnerability to declines in the real estate market.

Decline in Real Estate Market Led to Asset Quality Deterioration

First Chicago’s asset quality deteriorated significantly as the local economy slowed and the
demand for residential housing declined. Declines in the local real estate market resulted in
significant deterioration in the bank’s CRE portfolio, particularly in CLD loans, as many
borrowers struggled to sell completed construction projects and experienced reduced profitability
and cash flow. Significant declines in local housing permits between 2005 and 2009 were
reflective of the declining local real estate market conditions cited by examiners. Total housing
permits in the Chicago Metropolitan Statistical Area declined by 88.7 percent, from nearly
54,000 in 2005 to approximately 6,100 in 2009. 8

Examiners noted in a June 2009 examination that First Chicago’s response to declining
economic conditions was constrained by weak risk management practices that were not
commensurate with the bank’s high risk lending and funding strategy. Examiners attributed the
increase in First Chicago’s problem loans to “past liberal underwriting and aggressive lending
practices” that were exacerbated by deteriorating real estate market conditions. Weaknesses in
management’s ability to identify problem loans contributed to a significant increase in classified
assets. As shown in Chart 4, classified assets increased by $311 million, or 1,595 percent,
between the March 2007 and the 2009 June examinations. Classified assets remained high until
the bank’s closure in 2011, as management struggled to control the bank’s increasing volume of
problem loans.

Chart 4: Classified Assets

                              $400,000
                              $350,000
                              $300,000
             (000s omitted)




                              $250,000
                              $200,000
                              $150,000
                              $100,000
                               $50,000
                                   $0
                                         Mar 07   Apr 08   Jun 09    Nov 09    Jun 10       Jan 11
                                                           Examination Date




    8
      Metropolitan Statistical Areas are geographic areas defined by the Office of Management and Budget to be
used by federal statistical agencies in collecting, tabulating, and publishing federal statistics.

                                                           15
Loan Losses and Goodwill Impairment Eliminated Earnings and Depleted Capital

The growth in classified assets required corresponding increases in First Chicago’s loan loss
provisions and adversely affected the bank’s earnings. Given the severity of the bank’s asset
quality deterioration, examiners required First Chicago to increase its allowance for loan and
lease losses (ALLL) by an additional $35 million between 2009 and 2011. As shown in Chart 5,
loan loss provisioning contributed to the bank’s depleted earnings.

Chart 5: Impact of Provision Expense on Earnings

                              $100,000

                               $50,000
             (000s omitted)




                                    $0
                                                                                             Provision Expense
                               -$50,000
                                                                                             Net Income
                              -$100,000

                              -$150,000
                                            2005   2006    2007     2008 2009   2010 2011*
                                                                  Year-end
                                          * As of June 30, 2011


In addition, goodwill from the Bloomingdale merger was significantly impaired due to the
bank’s poor financial condition. 9 Goodwill write-downs of $40.3 million in 2008 and $44
million in 2009 negatively affected earnings. First Chicago reported net losses of $41.7 million
and $107.5 million in 2008 and 2009, respectively. Net losses in 2010 and the first six months of
2011 were primarily due to high provision expenses and lower interest revenues from loans, as
loan write-offs significantly reduced the bank’s loan portfolio.

FRB Chicago implemented the PCA provisions of the FDI Act and made timely notifications to
the bank when it reached various PCA categories. PCA is a framework of supervisory actions
intended to promptly resolve capital deficiencies at troubled financial institutions. Significant
losses recognized in 2009 eroded the bank’s capital, despite $59.5 million in capital injections
during 2008 and 2009 from the BHCs. In March 2010, FRB Chicago notified First Chicago that
the bank fell from well capitalized to adequately capitalized under PCA guidelines.

Mounting losses offset a $25 million capital injection in 2010. In February 2011, FRB Chicago
notified the bank that it had become undercapitalized and required the bank to submit a capital
restoration plan. First Chicago was unable to provide an acceptable capital restoration plan to
FRB Chicago, and in March 2011, the bank was notified that it fell to significantly
    9
      Goodwill is an intangible asset shown on an institution’s balance sheet and is often created through
acquisitions. The amount of goodwill is the difference in the asset’s fair market value and the price paid at the time
of acquisition. The goodwill impairments acknowledged the bank’s declining fair market value.

                                                                       16
undercapitalized as the Board of Directors and management failed to control the level of the
bank’s problem credits and restore the bank back to profitability. The Federal Reserve Board
issued a PCA Directive on April 7, 2011, that, among other things, required First Chicago to (1)
raise additional capital to achieve the adequately capitalized PCA designation, or (2) be acquired
by, or merge with, another depository institution. First Chicago’s financial condition continued
to deteriorate, and in May 2011, FRB Chicago deemed the bank critically undercapitalized.
First Chicago failed to comply with the PCA Directive, and the State closed the bank on July 8,
2011.

Supervision of First Chicago Bank and Trust
FRB Chicago complied with the examination frequency guidelines for the timeframe we
reviewed, 2007 through 2011, and conducted regular off-site monitoring. During the period
covered by our review, FRB Chicago and the State conducted four full scope examinations, two
target examinations, one supervisory assessment, and one CRE review; executed three
enforcement actions—a Board Resolution, a Written Agreement, and a PCA Directive; and
implemented the applicable provisions of PCA. FRB Chicago also complied with SR Letter
98-28, Examinations of Insured Depository Institutions Prior to Membership or Mergers into
State Member Banks. 10

Our analysis of FRB Chicago’s supervision of First Chicago revealed that FRB Chicago
identified the bank’s fundamental weaknesses, but did not take early, forceful supervisory action
to address those weaknesses.




    10
        SR Letter 98-28 establishes the criteria for conducting safety and soundness examinations of depository
institutions seeking to become, or merge into, a state member bank, as well as the state member bank itself.
Specifically, the guidance outlines the eligible bank test and the factors to be evaluated when determining whether
pre-member or pre-merger examinations should be conducted. A bank must satisfy each of the following
components of a five-part test to qualify as an eligible bank: (1) well capitalized; (2) a composite CAMELS rating
of 1 or 2; (3) a Community Reinvestment Act rating of “outstanding” or “satisfactory”; (4) a consumer compliance
examination rating of 1 or 2; and (5) no major unresolved supervisory issues outstanding, as determined by the
Federal Reserve Board or the appropriate Federal Reserve Bank “in its discretion.” If an institution does not satisfy
these criteria, a pre-membership or pre-merger examination is required. SR Letter 98-28 was superseded by SR
Letter 11-2, Examinations of Insured Depository Institutions Prior to Membership or Mergers into State Member
Banks, on February 2, 2011.

                                                         17
Table 1: First Chicago Supervisory Overview

             Examination                                                         CAMELS Component Ratings
                                         Agency   CAMELS




                                                                                   Asset Quality


                                                                                                   Management
                                       Conducting Composite                                                                                            Supervisory




                                                                                                                                       Sensitivity
                Report




                                                                                                                           Liquidity
                                                                                                                Earnings
                                                                       Capital
Start Date                   Scope     Examination Rating                                                                                                Actions
              Issue Date



3/12/2007     4/30/2007       Full          Joint           2            2             2              2           2          2            2

                              Full          Joint           2            2             3              2           2          2            2          Board Resolution
4/28/2008 9/23/2008*
                           CRE
                                            FRB            n/a
                          Review
                        Supervisory
4/27/2009     5/29/2009                     Joint           3            3             4              2           5          3            2
                        Assessment
6/22/2009     12/4/2009       Full          Joint           5            5             5              4           5          5            4          Written Agreement

11/16/2009 3/25/2010         Target         Joint           5            5             5              4           5          5            4

6/28/2010 10/22/2010          Full          Joint           5            5             5              4           5          5            4

1/18/2011     5/9/2011       Target        Joint**          5            5             5              5           5          5            4           PCA Directive

     *A CRE Review was performed in conjunction with the full scope examination.
     **FDIC participated in this joint examination.


March 2007 Joint Full Scope Examination Resulted in a CAMELS Composite 2 Rating

The March 2007 full scope examination was the first examination after Labe Bank and
Bloomingdale merged and formed First Chicago in November 2006, and it resulted in a
CAMELS composite 2 (satisfactory) rating. All CAMELS components received 2 ratings. The
April 2007 examination report stated that First Chicago’s strategic plan contained an aggressive
growth strategy to grow the bank from $1.1 billion in assets to $2 to $5 billion within five years
and position the bank to become publicly traded. According to examiners, while Labe Bank and
Bloomingdale historically relied on non-core funding to promote asset growth, First Chicago
planned to decrease its reliance on non-core funding by gathering lower cost core deposits.

The asset quality component was deemed satisfactory with strong credit risk management.
Examiners noted an effective loan policy and review system, but stated that the bank operated
with high concentrations in CRE and CLD loans, at 539 percent and 167 percent of total risk-
based capital, respectively. In addition, the April 2007 examination report also stated that First
Chicago planned to reduce CRE concentration by continuing to diversify into C&I lending.
Examiners suggested that management “consider enhancing its risk management practices over
the bank’s real estate loan concentrations” as outlined in SR Letter 07-1. Examiners also noted
that although First Chicago’s ALLL was adequate, its analysis was not consistent with
accounting standards.




                                                                  18
Examiners assigned the management component a satisfactory rating, but noted that changes
associated with the 2006 merger, such as staff reductions and changes in operating policies,
procedures, and information technology systems, contributed to high and increasing operational
risk. Examiners commented, however, that the Board of Directors’ oversight was strong, with
Directors actively involved in the bank’s operations. According to examiners, the Board of
Directors and senior management possessed strong business, investment, or banking
backgrounds and were capable of managing the bank’s risks and implementing strategic plans.
In addition, examiners stated that Castle Creek management applied its “significant managerial
and banking expertise” while working closely with First Chicago’s leadership.

April 2008 Joint Full Scope Examination Maintained a CAMELS Composite 2 Rating but
Resulted in a Board Resolution

In April 2008, the State led a joint full scope examination that resulted in a CAMELS composite
2 rating. All CAMELS components remained at 2, except for the asset quality component,
which received a 3. The September 2008 examination report stated that the overall condition of
the bank was satisfactory, with prudent management, adequate earnings, manageable sensitivity
to market risk, sufficient liquidity, and a capital level commensurate with First Chicago’s overall
risk profile.

Asset quality was considered less than satisfactory. Adversely classified assets significantly
increased from $19.5 million at the March 2007 examination to $47.1 million. While the ALLL
was sufficient, the methodology was again found to be inconsistent with accounting standards.
Examiners also noted deficiencies in the credit policy, as it did not address (1) loan concentration
limits; (2) ALLL review; (3) problem loan identification; and (4) loan ratings. As with the
March 2007 examination, examiners noted First Chicago’s high concentrations in CRE and CLD
loans and management’s plan to reduce such concentrations by increasing C&I lending.

Concurrently, FRB Chicago conducted a CRE review, which focused on the bank’s CRE
exposures, an assessment of the risk to capital from CRE lending, and an evaluation of the
potential risks to First Chicago’s liquidity due to deteriorating loan quality. The CRE review
report revealed examiners’ concerns about the adverse effect of deteriorating residential real
estate market conditions on the bank’s loan portfolio and First Chicago’s future earnings
potential. According to examiners, First Chicago’s CRE loans comprised over 50 percent of the
total loan portfolio. Examiners commented that further deterioration in the local real estate
market would expose construction projects in the bank’s loan portfolio to potential losses and
increase the risk profile of the bank. Examiners also noted tightening liquidity because of the
bank’s continued reliance on non-core funding sources. First Chicago increased its reliance on
non-core funding sources—brokered deposits represented 13.9 percent of total deposits at year-
end 2006 and 25.7 percent in March 2008. Examiners concluded that First Chicago’s asset
quality was an “immediate concern” and suggested that a target review of asset quality be
scheduled in six months if the loan portfolio exhibited further deterioration.

Due to the deteriorating asset quality and the findings of the April 2008 examination, First
Chicago entered into a Board Resolution with FRB Chicago and the State in October 2008. The
Board Resolution included action plans to (1) establish and maintain the necessary procedures to

                                                19
reduce the high level of adversely classified assets and delinquent and nonaccrual loans
identified in the September 2008 examination report, (2) correct deficiencies noted as Special
Mention in the report, (3) improve loan administration practices, (4) revise lending policy, (5)
establish an effective Interest Rate Risk Monitoring Program, and (6) charge off remaining assets
classified as “Loss.” The resolution did not address the bank’s high credit concentration risks,
nor did it include plans to implement specific guidelines noted in SR Letter 07-1.

In our opinion, the April 2008 examination presented an opportunity for earlier supervisory
response. Given the continued level of the bank’s credit concentrations, deteriorating asset
quality, and weakened local real estate market conditions, we believe a stronger supervisory
response related to credit risk management of concentrations and compliance with corresponding
guidelines in SR Letter 07-1 was warranted.

April 2009 Joint Supervisory Assessment Resulted in a Downgrade to a CAMELS
Composite 3 Rating

In April 2009, FRB Chicago and the State conducted a supervisory assessment because
examiners determined that there was strong evidence that First Chicago’s financial condition
changed significantly. The bank’s CAMELS composite rating was downgraded to a 3 (less than
satisfactory), the capital and liquidity components were downgraded to 3 ratings, the asset
quality component was downgraded to a 4, and the earnings component was triple downgraded
to a 5 rating. The management and sensitivity to market risk components remained 2-rated. The
May 2009 report stated that First Chicago’s financial condition had deteriorated significantly as a
result of continued deterioration in asset quality, a corresponding decline in earnings, and
increased risk to capital and tightened liquidity.

Classified assets increased almost 400 percent from $47.1 million to $229.7 million in only 12
months. Although examiners noted improvements in credit management reports, the ALLL was
found to be inadequate. The bank’s earnings were considered critically deficient due to (1)
increased loan loss provision expenses, (2) write-down of goodwill, and (3) a decrease in interest
income, which resulted in a net loss of $41.7 million in 2008. According to examiners,
management expected additional loan loss provisions and lower interest income in 2009 and
projected a net loss.

As a result of negative earnings and deteriorating asset quality, examiners rated First Chicago’s
capital component a 3 rating and cited that the capital levels were insufficient in relation to the
bank’s increased risk profile. Examiners also assigned First Chicago’s liquidity component a 3
rating due to the bank’s continued reliance on non-core funding. Examiners found brokered
deposits totaled $450 million, or 45.6 percent of total deposits, and required management to
develop a robust liquidity contingency plan. Despite these significant deficiencies and the
corresponding CAMELS component and composite downgrades, examiners maintained the
management component at a 2 rating. While we recognize that FRB Chicago downgraded First
Chicago’s management CAMELS component rating in the subsequent examination in June 2009,
we believe that deficiencies identified in the supervisory assessment report warranted stronger
criticism of the bank’s management practices.


                                                20
June 2009 Joint Full Scope Examination Resulted in a CAMELS Composite 5 Rating and a
Written Agreement

In June 2009, FRB Chicago led a joint full scope examination that resulted in a double
downgrade to a CAMELS composite 5 (critically deficient) rating. The capital, asset quality,
earnings, and liquidity components were all rated 5, and the management and sensitivity to
market risk components received 4 ratings. Examiners expressed serious supervisory concerns
about First Chicago’s condition and that the bank’s severely weakened credit quality threatened
the viability of the bank. In the December 2009 examination report, examiners projected further
credit deterioration and continued losses for the remainder of 2009 and in 2010.

Asset quality was considered critically deficient and, according to examiners, presented an
imminent threat to the bank’s viability. Classified assets had risen to $330.1 million, and
examiners commented that a sharp decline in real estate values and transactions and inadequate
identification and monitoring of loan concentration risks contributed to a significant increase in
First Chicago’s troubled loans. Examiners also noted First Chicago’s continued high
concentrations in CRE and CLD loans. Examiners stated that the bank’s concentration report
was not in compliance with regulatory guidance in SR Letter 07-1 because the report lacked the
necessary loan stratification, which hindered management’s ability to adequately assess credit
risk. Examiners required the bank to set meaningful loan concentration limits for the various
types of loans and to include written guidelines to manage or reduce significant CRE
concentration risk exposure. In addition, examiners noted weaknesses affecting the adequacy of
the ALLL due to a lack of (1) proper concentration monitoring; (2) consideration of
concentration risks analysis; (3) incorporation of a loan rating system; and (4) compliance with
regulatory guidance.

First Chicago’s capital was rated critically deficient in relation to the bank’s high risk profile and
inability to augment capital from operations. Examiners stated that First Chicago’s viability was
threatened and strongly encouraged the bank to seek immediate financial assistance. Despite
capital injections of $15 million in June 2009 and $25 million in September 2009, the significant
increase in problem assets led to loan losses. These losses contributed to net losses of $41.7
million in 2008 and $30.4 million in the first six month of 2009 and severely eroded capital.

Management was considered weak due to the bank’s critically deficient condition and weak risk
management practices. Examiners stated that the level of deficiencies and risk exposures were
excessive and required First Chicago to return the bank to a safe and sound condition.
Examiners commented that the Board of Directors and management were unable to mitigate the
bank’s significant risk exposure in CRE and CLD concentrations as real estate market conditions
deteriorated. While examiners acknowledged First Chicago’s efforts to improve its capital and
liquidity position by reducing the size of the bank’s loan portfolio, examiners stated that
management’s ability to bring the bank back to profitability in the depressed economic times was
severely limited.

As a result of this examination, FRB Chicago and the State implemented a formal enforcement
action in the form of a Written Agreement on March 8, 2010, that required the Board of
Directors to address issues in various areas, including the oversight of management and bank

                                                 21
operations, credit risk management and administration, credit concentrations, asset quality
improvement, the ALLL methodology, capital adequacy, liquidity and funds management
practices, brokered deposit reliance, interest rate risk management, earnings improvement,
submission of a realistic budget, information technology and security deficiencies, restrictions on
dividends and debts, and compliance with laws and regulations.

November 2009 Joint Target Examination Maintained a CAMELS Composite 5 Rating

In November 2009, FRB Chicago led a joint target examination that focused on evaluating asset
quality and credit risk management practices and assessing the adequacy of the ALLL balance
and methodology. Examiners found that First Chicago’s (1) high volume of nonperforming
loans and classified assets, (2) significant reliance on brokered deposits, (3) critically deficient
earnings, and (4) depleted capital contributed to its critically deficient condition. The
examination resulted in another CAMELS composite 5 rating, with all CAMELS components
remaining the same. In the March 2010 examination report, examiners noted excessive credit
risk exposure and critically deficient asset quality. Examiners also attributed increased levels of
problem loans in the bank’s CLD portfolio to First Chicago’s high concentration in CRE credits,
past liberal underwriting, and aggressive lending practices. Although examiners acknowledged
management’s efforts to address weaknesses in credit risk management, overall credit risk
management practices remained weak and in need of improvement. Examiners found the bank’s
loan impairment analysis inadequate and risk monitoring for the bank’s CRE concentration still
noncompliant with SR Letter 07-1. Classified assets also remained excessive at $313.3 million.
Examiners considered First Chicago’s ALLL balance inadequate and required the bank to
increase the ALLL to a level commensurate with the risk profile of the loan portfolio.
Examiners questioned First Chicago management’s ability to prevent further deterioration under
declining economic conditions and the increasing volume of classified assets.

June 2010 Joint Full Scope Examination Resulted in Another CAMELS Composite 5
Rating

In June 2010, FRB Chicago led a joint full scope examination that found that the overall
condition of First Chicago remained critically deficient. The October 2010 examination report
stated that First Chicago had (1) deficient capital, (2) a vulnerable liquidity position, (3) critically
deficient asset quality, and (4) continued lack of profitability. The report concluded that the
bank’s unsafe and unsound condition was threatening the bank’s viability. In the report,
examiners also stated that the failure of the bank was “a distinct possibility” and urged
management to acquire additional capital and address deficiencies. Examiners attributed
significant deterioration in asset quality to the bank’s prior weak underwriting and aggressive
lending practices, which were exacerbated by declining real estate market conditions. They also
expressed significant concern about the bank’s large concentrations in CRE and CLD loans and
the inadequate ALLL balance and methodology.

Earnings had remained critically deficient due to significant and sustained losses that depleted
capital. Examiners noted concerns about continued asset quality deterioration due to First
Chicago’s large concentration in CRE loans and questioned the bank’s future profitability.
Furthermore, capital injections of approximately $44 million in 2009 and $25 million in 2010 did

                                                  22
not adequately support First Chicago’s capital against continuous loan losses. Examiners stated
that the bank had only achieved partial compliance with the March 2010 Written Agreement and
that certain critical aspects of the agreement had not been achieved, such as maintaining an
adequate ALLL.

Examiners noted that the “strategic choices and decisions” made by the Board of Directors and
management played a significant role in the bank’s weak financial condition. Examiners also
criticized the Board of Directors and management for establishing an inherently risky business
strategy that resulted in a CRE concentration funded by non-core funding, including brokered
deposits; however, examiners did not downgrade the management component rating. In our
opinion, the extent of weaknesses identified at this examination, First Chicago’s critically
deficient condition, and the lack of full compliance with the Written Agreement warranted
stronger criticism of the bank’s management—specifically risk management practices. We
believe that the June 2010 examination presented an opportunity for stronger supervisory action,
including a management component downgrade.

January 2011 Joint Target Examination Maintained a CAMELS Composite 5 Rating

In January 2011, FRB Chicago and the State began a target examination of the bank’s asset
quality and credit risk management. In the May 2011 examination report, examiners maintained
First Chicago’s CAMELS composite 5 rating, but downgraded the management component to a
5, with all other components remaining the same. Examiners noted asset quality was persistently
deficient and declining, as evidenced by increased loan classifications to $380.6 million, and
continuing loan losses. Examiners also warned that critically deficient capital levels, attributed
to sustained operating losses and deteriorating asset quality, threatened First Chicago’s near-term
viability. The Board of Directors’ and management’s oversight was considered critically
deficient based on the overall distressed condition of the bank. Examiners found that the Board
of Directors and management failed to implement effective risk management practices or
adequately respond to changing business conditions.

As a result of continued loan losses, the bank became significantly undercapitalized during the
examination. On April 7, 2011, a PCA Directive was issued to First Chicago that required the
bank to resolve its capital deficiencies. The bank was deemed critically undercapitalized due to
additional loan losses on May 12, 2011. Management was unable to raise capital, and the State
closed the bank on July 8, 2011, and appointed the FDIC as receiver.

Conclusions and Lessons Learned
First Chicago failed because its Board of Directors and management did not adequately control
the risks associated with the bank’s aggressive lending strategy, which focused on CRE loans,
including CLD loans. The bank’s business strategy included loan growth through CRE lending,
supported primarily by non-core funding sources, and resulted in a CRE concentration. The
2006 merger reduced the bank’s CRE concentration and helped diversify the bank’s loan
portfolio. Management planned to further reduce the bank’s concentration through loan
diversification by increasing lending in C&I loans. However, management’s subsequent efforts
failed to reduce and adequately manage the bank’s credit concentration risks. First Chicago’s

                                                23
CRE loan concentration, particularly in CLD loans, made the bank especially vulnerable to real
estate market declines. First Chicago’s Board of Directors’ and management’s failure to
effectively manage the bank’s CRE and CLD credit risk, coupled with a declining real estate
market, led to significant asset quality deterioration. Mounting losses depleted the bank’s
earnings and eroded capital, which prompted the State to close First Chicago and appoint the
FDIC as receiver on July 8, 2011.

With respect to supervision, FRB Chicago complied with the examination frequency guidelines
for the timeframe we reviewed, 2007 through 2011, and conducted regular off-site monitoring.
During the period covered by our review, FRB Chicago and the State conducted four full scope
examinations, two target examinations, one supervisory assessment, and one CRE review;
executed three enforcement actions—a Board Resolution, a Written Agreement, and a PCA
Directive; and implemented the applicable provisions of PCA. FRB Chicago also complied with
SR Letter 98-28.

Fulfilling our mandate under section 38(k) of the FDI Act provides an opportunity to determine,
in hindsight, whether additional or alternative supervisory actions could have been taken to
reduce the likelihood of a bank’s failure or a loss to the DIF. Our analysis of FRB Chicago’s
supervision of First Chicago revealed that FRB Chicago identified the bank’s fundamental
weaknesses, but did not take early, forceful supervisory action to address those weaknesses.

We believe that there were a number of instances that presented an opportunity for stronger
supervisory responses. In the March 2007 examination, examiners noted First Chicago’s high
CRE and CLD loan concentrations, and acknowledged management’s plan to reduce these
concentrations by diversifying the bank’s loan portfolio through increased C&I lending.
Examiners only suggested that management “consider enhancing its risk management practices
over the bank’s real estate loan concentrations” as outlined in SR Letter 07-1. At the following
examination in April 2008, examiners again cited First Chicago’s high concentrations in CRE
and CLD loans, but did not compel the bank to adhere to the enhanced credit risk management
standards detailed in SR Letter 07-1 to address its credit concentrations. Asset quality and
earnings deterioration were noted in the April 2009 supervisory assessment, and in the June 2009
examination, examiners identified multiple weaknesses in First Chicago’s assessment of credit
risk, such as problem loan identification and concentration monitoring. Therefore, we believe
that a stronger supervisory response related to the credit risk management of concentrations was
warranted as early as the April 2008 examination.

Weaknesses in First Chicago’s credit risk management practices and bank management’s
inability to manage the resulting effects of asset quality deterioration during stressed economic
times contributed to the bank’s poor overall financial condition. In April 2009, FRB Chicago
and the State conducted the supervisory assessment because examiners determined that there was
strong evidence that First Chicago’s financial condition changed significantly. Examiners
downgraded the CAMELS composite rating to a 3 due to the bank’s declining condition. In
addition, examiners downgraded the capital and liquidity components to 3 ratings, the asset
quality component to a 4 rating, triple downgraded the earnings component to a 5 rating, but
maintained the management component rating at a 2. While we recognize that FRB Chicago
downgraded First Chicago’s management CAMELS component rating in the subsequent

                                               24
examination that began in June 2009, we believe that this supervisory assessment presented an
opportunity for stronger criticism of management’s performance related to the bank’s
deteriorating condition.

In June 2009, two months after the supervisory assessment, FRB Chicago began a joint full
scope examination that revealed further deterioration in the bank’s condition and resulted in a
double downgrade of the CAMELS composite rating to a 5. Examiners also double downgraded
the management component to a 4 rating to reflect the bank’s critically deficient condition and
weak risk management practices. First Chicago’s overall condition continued to erode, and the
bank’s CAMELS composite rating remained a 5 following the November 2009 and June 2010
examinations. Examiners found that First Chicago’s (1) high volume of nonperforming loans
and classified assets, (2) significant reliance on brokered deposits, (3) critically deficient
earnings, and (4) depleted capital contributed to its critically deficient condition. In addition,
examiners cited management’s “significant role” in the bank’s heightened risk profile and stated
that the bank’s failure was “a distinct possibility.” Nonetheless, examiners continued to rate the
management component a 4. In our opinion, First Chicago’s condition and management’s
inability to timely address identified deficiencies called for stronger criticism, including a
management component downgrade.

While we believe that FRB Chicago had opportunities for earlier and more forceful supervisory
action, it is not possible for us to predict the effectiveness or impact of any corrective measures
that might have been taken by the bank. Therefore, we cannot evaluate the degree to which an
earlier or alternative supervisory response would have affected First Chicago’s financial
deterioration or the ultimate cost to the DIF.

Lessons Learned

Although the failure of an individual institution does not necessarily provide sufficient evidence
to draw broad-based conclusions, we believe that First Chicago’s failure offers lessons learned
that can be applied to supervising banks with similar characteristics and circumstances. First
Chicago’s failure illustrates the importance of (1) timely implementation of a robust credit risk
assessment program designed to facilitate the identification and management of concentrations;
(2) closely monitoring and assessing management performance; and (3) appropriately assigning
management CAMELS ratings commensurate with the issues identified during the examination.

Analysis of Comments
We provided a copy of our report to the Director of the Division of Banking Supervision and
Regulation for review and comment. The Director concurred with the conclusions and lessons
learned contained in the report and acknowledged the importance of taking aggressive
supervisory actions to address uncorrected safety and soundness concerns. His response is
included as Appendix 3.




                                                 25
Appendixes
Appendix 1 – Glossary of Banking and Regulatory Terms

Allowance for Loan and Lease Losses (ALLL)

A valuation reserve established and maintained by charges against the bank’s operating income.
As a valuation reserve, it is an estimate of uncollectible amounts that is used to reduce the book
value of loans and leases to the amount that is expected to be collected. The reserve must be
sufficient to absorb probable losses inherent in the institution’s loan and lease portfolio.

Board Resolution

An informal supervisory enforcement action that represents commitments made by a bank’s
Board of Directors. The commitments are incorporated into the bank’s corporate minutes.

Classified Assets

Loans that exhibit well-defined weaknesses and a distinct possibility of loss. Classified assets
are divided into more specific subcategories ranging from least to most severe: “substandard,”
“doubtful,” and “loss.” An asset classified as “substandard” is inadequately protected by the
current sound worth and paying capacity of the obligor or of the collateral pledged, if any. An
asset classified as “doubtful” has all the weaknesses inherent in one classified as “substandard,”
with the added characteristic that the weaknesses make full collection or liquidation highly
questionable and improbable. An asset classified as “loss” is considered uncollectible and of
such little value that its continuance as a bankable asset is not warranted.

Commercial and Industrial (C&I) Loans

Loans to a corporation, commercial enterprise, or joint venture that are not ordinarily maintained
in either the real estate or consumer installment loan portfolios. While the types of C&I loans
can vary widely depending on the purpose of the loans made and the market characteristics
where the bank operates, most C&I loans will primarily be made in the form of a seasonal or
working-capital loan, term business loan, or loan to an individual for a business purpose.

Commercial Real Estate (CRE) Loans

Land development and construction loans (including one- to four-family residential and
commercial construction loans) and other land loans. CRE loans also include loans secured by
multifamily property and nonfarm, nonresidential property where the primary source of
repayment is derived from rental income associated with the property or the proceeds of the sale,
refinancing, or permanent financing of the property.




                                                29
Appendix 1 (continued)
Concentration

A significant amount of direct or indirect extensions of credit and contingent obligations that
possess similar risk characteristics. Typically, loans to related groups of borrowers, loans
collateralized by a single security or securities with common characteristics, and loans to
borrowers with common characteristics within an industry have been included in homogeneous
risk groupings when assessing asset concentrations.

Construction and Land Development (CLD) Loans; also known as Construction, Land,
and Land Development (CLD) Loans

A subset of commercial real estate loans, secured by real estate (including non-agricultural
vacant land), for (1) on-sight construction of industrial, commercial, residential, or farm
buildings, and (2) land development, including pre-construction preparatory work such as laying
sewer and water pipes.

Enforcement Actions

The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that may be taken, typically after the completion of an on-site bank
examination. Formal enforcement actions consist of Written Agreements, Temporary Cease-
and-Desist Orders, Cease-and-Desist Orders, Prohibition and Removal Orders, and Prompt
Corrective Action Directives; while informal enforcement actions include Commitments, Board
Resolutions, and Memoranda of Understanding.

Non-Core Funding

Funding that can be very sensitive to changes in interest rates, such as brokered deposits,
certificates of deposit greater than $100,000, federal funds purchased, and borrowed money.

Prompt Corrective Action (PCA)
A framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital positions have declined below certain threshold levels. It was intended
to ensure that action is taken when an institution becomes financially troubled, in order to resolve
the problems of the institution at the least possible long-term loss to the DIF. The capital
categories are well capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.




                                                30
Appendix 1 (continued)
Supervision and Regulation (SR) Letters

SR letters are issued by the Federal Reserve Board’s Division of Banking Supervision and
Regulation. They address significant policy and procedural matters of continuing relevance to
the Federal Reserve Board’s supervisory effort. SR letters are for distribution to supervised
institutions as well as Reserve Banks.

Underwriting

Detailed credit analysis preceding the granting of a loan, based on credit information furnished
by the borrower, such as employment history, salary, and financial statements; publicly available
information, such as the borrower’s credit history; and the lender’s evaluation of the borrower’s
credit needs and ability to pay.

Written Agreement

A formal supervisory enforcement action that is generally issued when a financial or an
institution-affiliated party has multiple deficiencies that are serious enough to warrant formal
action or that have not been corrected under an informal action. It is an agreement between a
financial institution and the Federal Reserve Board or a Federal Reserve Bank that may require
the financial institution or the institution-affiliated party to (1) stop engaging in specific practices
or violations or (2) take action to correct any resulting conditions. The agreement may also
require the financial institution to provide ongoing information, such as progress reports. This
enforcement action is the least severe of the formal enforcement actions.




                                                  31
Appendix 2 – CAMELS Rating System
Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution’s financial condition and
operations. These component factors address the adequacy of capital, the quality of assets, the
capability of management, the quality and level of earnings, the adequacy of liquidity, and the
sensitivity to market risk (CAMELS). Evaluations of the components take into consideration the
institution’s size and sophistication, the nature and complexity of its activities, and its risk
profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates
the highest rating, strongest performance and risk management practices, and least degree of
supervisory concern, while a 5 indicates the lowest rating, weakest performance, inadequate risk
management practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the Board of
Directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences, such as economic
instability in their trade area. These financial institutions are in substantial compliance with laws
and regulations. As a result, these financial institutions exhibit the strongest performance and
risk management practices relative to the institutions’ size, complexity, and risk profile and give
no cause for supervisory concern.

Composite 2

Financial institutions in this group are fundamentally sound. For financial institutions to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the Board of Directors’ and management’s
capabilities and willingness to correct. These financial institutions are stable and are capable of
withstanding business fluctuations. These financial institutions are in substantial compliance
with laws and regulations. Overall risk management practices are satisfactory relative to the
institutions’ size, complexity, and risk profile. There are no material supervisory concerns; and,
as a result, the supervisory response is informal and limited.




                                                 33
Appendix 2 (continued)
Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institutions’
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
There are serious financial or managerial deficiencies that result in unsatisfactory performance.
The problems range from severe to critically deficient. The weaknesses and problems are not
being satisfactorily addressed or resolved by the Board of Directors and management. Financial
institutions in this group generally are not capable of withstanding business fluctuations. There
may be significant noncompliance with laws and regulations. Risk management practices are
generally unacceptable relative to the institutions’ size, complexity, and risk profile. Close
supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the DIF. Failure is a
distinct possibility if the problems and weaknesses are not satisfactorily addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices
relative to the institutions’ size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management’s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed in order for the
financial institutions to be viable. Ongoing supervisory attention is necessary. Institutions in
this group pose a significant risk to the DIF, and failure is highly probable.




                                                 34
Appendix 3 – Division Director’s Comments
                        Board of Governors of the Federal Reserve System
                             Division of Banking Supervision and Regulation

  Date:     February 16, 2012
   To:      Anthony J. Castaldo – Associate Inspector General for Inspections and Evaluations
 From:      Michael S Gibson, Director, Banking Supervision and Regulation /signed/
Subject:    Material Loss Review of First Chicago Bank & Trust

        The staff of the Division of Banking Supervision and Regulation has reviewed the draft
Material Loss Review for First Chicago Bank & Trust (First Chicago), Chicago, Illinois prepared
by the Office of Inspector General in accordance with section 38(k) of the Federal Deposit
Insurance Act, as amended. The report finds that First Chicago failed because its Board of
Directors and management did not adequately control the risks associated with the bank’s
aggressive growth strategy, which resulted in a concentration in commercial real estate (CRE),
particularly in construction, land, and development (CLD) loans. First Chicago was supervised
by the Federal Reserve Bank of Chicago (FRB Chicago) under delegated authority from the
Board.

        FRB Chicago complied with examination frequency guidelines for the time period that
was reviewed, 2007 through 2011. During this time FRB Chicago and the Illinois State
Department of Financial and Profession Regulation (State) conducted four full scope
examinations, two target examinations and an offsite supervisory assessment review that
downgraded capital, asset quality, earnings and liquidity component ratings. In addition, FRB
Chicago conducted other regular off-site monitoring and a CRE horizontal review. Further, over
this timeframe supervisors executed three enforcement actions with First Chicago, which
included one informal and one formal action, and implemented all applicable PCA provisions.
The report recognizes that examiners identified the fundamental weaknesses that contributed to
the bank’s failure, but concludes that they did not take early, forceful supervisory action to
address those weaknesses. The report states that it is not possible to determine whether
alternative supervisory actions would have affected First Chicago’s eventual decline.

       Banking Supervision and Regulation staff concurs with the conclusions and lessons
learned in the report. First Chicago’s failure illustrates the risks associated with a strategic focus
on high-risk loan products and expansion into new markets and the importance of establishing
appropriate credit risk management practices prior to pursuing such higher risk lending.
Moreover, it reinforces the importance of taking aggressive supervisory actions to address
uncorrected safety and soundness concerns.




                                                  35
Appendix 4 – Principal Contributors to This Report
Chie N. Hogenmiller, Project Leader and Senior Auditor

Trevor N. Gaskins, Auditor

Jonathan S. Park, Auditor

Timothy P. Rogers, Office of Inspector General Manager




                                             37
